IN THE

~uprcme

<!Court of tbe W:niteh ~tates
No. 19-494

DAVID ZACHERY MORGAN,

Petitioner,
v.
STATE OF WASHINGTON,

Respondent.
On Petition for a Writ of Certiorari to the
Supreme Court of Washington
CERTIFICATE OF SERVICE

I hereby certify that on this 18th day of November, 2019, I caused three copies of
the Brief of Professors Brooks Holland and Benjamin Levin as Amici Curiae in Support
of Petitioner to be served on the following by Federal Express and email:
AmirH.Ali
RODERICK & SOLANGE MACARTHUR
JUSTICE CENTER

Seth A. Fine
SNOHOMISH COUNTY PROSECUTOR'S
OFFICE

777 6th Street NW, 11th Floor
Washington, DC 20001
(202) 869-3434
amir.ali@macarthurjustice.org

3000 Rockefeller Avenue, MIS #504
Everett, WA 98201
(425) 388-3333
sfine@snoco.org

Counsel for Petitioner David Morgan

Counsel for Respondent State of
Washington

I hereby certify that all parties required to be served have been served. I declare
under penalty of perjury that the foregoing is true and correct.
Executed on November 18,2019.

Robert K. Kry
MoLOLAMKEN LLP

The Watergate, Sui
600NewHampshir Ave.,N.W
Washington, D.C. 20037
(202) 556-2000
rkry@mololamken.com

Counsel for Amici Curiae

